OIG Investigative Reports, Huntertown, IN April 15, 2010 -International Businessman Charged in 23 Count Indictment
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney David Capp
Northern District of Indiana
204 South Main Street, Room M01
South Bend, IN 46601
FOR IMMEDIATE RELEASE:
April 15, 2010
Contact: Mary L. Hatton
Phone: (219) 937-5603
Fax: (219) 852-2770
INTERNATIONAL BUSINESSMAN CHARGED IN 23 COUNT INDICTMENT
The United States Attorney’s Office announced that a Grand Jury sitting in South Bend, Indiana, returned a 23-count indictment against James A. Simon. Simon, 59, of Huntertown, Indiana, is charged with tax fraud, failure to report foreign accounts, mail fraud, and federal financial aid fraud.
The indictment (Counts 1-4) alleges that, from 2003 through 2006, Simon and/or his family received approximately $1,799,502.60 from five business entities with which he was affiliated. These business entities were located in Gibraltar,  Cyprus, Colorado, and Indiana. Simon and his family spent approximately $1,748,607.21 of this amount between 2003 and 2006. Simon did not report this $1,799,502.60  as income on his federal tax returns from 2003 through 2006. In addition, Simon  did not disclose on his federal tax returns from 2003 through 2006 that he had  an interest in foreign bank accounts held in Gibraltar, Germany, and Cyprus.
The indictment (Counts 5-8) further alleges that, from 2004 through 2007, Simon had a financial interest in, or signature authority over, bank accounts held in Gibraltar, Germany, and Cyprus. These accounts had an aggregate value of more than $10,000 during these years. The indictment charges that Simon failed to file with the Treasury Department a required report regarding these accounts, called a Report of Foreign Bank and Financial Accounts (an FBAR).
The indictment (Counts 9-19) further alleges that, from 2004 through 2007, Simon applied for private financial aid for his family members to attend two different schools. On these applications, which were mailed, Simon provided false information regarding his family’s income and expenses. As a result of these applications, Simon’s family received total need-based financial aid of $106,600. The indictment charges that the mailings associated with these applications and awards constituted mail fraud.
The indictment (Counts 20-23) further alleges that Simon submitted a federal financial aid application for a family member to attend a third school. Based on this application, from August 2005 through May 2006, this family member received $14,365 in aid provided or insured by the federal government. The indictment charges that Simon obtained these funds illegally.
These charges were filed as a result of an investigation by the Internal Revenue Service Criminal Investigations. This case has been assigned to and will be prosecuted by Assistant United States Attorney Jesse M. Barrett.
The specific sentences to be imposed upon conviction will be determined by the judge after a consideration of federal sentencing statutes and the Federal Sentencing Guidelines. The United States Attorney's Office emphasizes that an indictment is merely an allegation and that all persons charged are presumed innocent until and unless proven guilty in court.
###
Printable view
Last Modified: 05/21/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov